<html>
<title> - REVIEWING THE JUVENILE JUSTICE SYSTEM AND HOW IT SERVES AT-RISK YOUTH</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                     REVIEWING THE JUVENILE JUSTICE
                        SYSTEM AND HOW IT SERVES
                             AT-RISK YOUTH

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, OCTOBER 8, 2015

                               __________

                           Serial No. 114-31

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-822 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 8, 2015..................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C., Ranking Member, Committee on Education 
      and the Workforce..........................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Baxter, Sloane, Youth Advocate, Washington, DC...............    49
        Prepared statement of....................................    51
    Cohen, Derek, Deputy Director, Center for Effective Justice, 
      Texas Public Policy Foundation, Austin, TX.................    40
        Prepared statement of....................................    42
    Goldsmith, Tim, Dr., Chief Clinical Officer, Youth Villages, 
      Memphis, TN................................................    66
        Prepared statement of....................................    68
    Teske, Hon. Steven, Chief Judge, Clayton County Juvenile 
      Court, Jonesboro, GA.......................................    57
        Prepared statement of....................................    59

Additional Submissions:
    Mr. Cohen:
    Responses to questions submitted for the record..............    77
    Promoting Safe Communities...................................   169
    Chairman Kline:
    Letter dated October 8, 2015 from Fight Crime: Invest in Kids   196
    Nolan, Tim, Ph.D., Executive Director/CEO, National Centers 
      for Learning Excellence, Inc., Child and Family Centers of 
      Excellence, Inc., Waukesha, WI:
    Four Points in Time: Defining the Success of Our Nation's 
      Head Start Investment......................................   202
    Quality Early Childhood Education: Enduring Benefits.........   206
    Judge Teske:
    Gender Injustice System-Level Juvenile Justice Reforms for 
      Girls......................................................    92
    Juvenile Justice and Delinquency Prevention Act (JJDPA) 
      Policy Recommendations.....................................   199
    Mr. Scott:
    Prepared statement of American Civil Liberties Union.........    07
    Prepared statement of ACT 4 Juvenile Justice Campaign........    21
    Prepared statement of Human Rights Campaign..................    24
    Prepared statement of National Indian Education Association..    29
    Prepared statement of National Head Start Association........    34
 
                 REVIEWING THE JUVENILE JUSTICE SYSTEM
                    AND HOW IT SERVES AT-RISK YOUTH

                              ----------                              


                       Thursday, October 8, 2015

                     U.S. House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:06 a.m., in room 
HVC-210, Capitol Visitor Center, Hon. John Kline [chairman of 
the committee] presiding.
    Present: Representatives Kline, Foxx, Walberg, Rokita, 
Messer, Brat, Carter, Bishop, Grothman, Curbelo, Allen, Scott, 
Davis, Courtney, Fudge, Wilson of Florida, Pocan, Clark, and 
DeSaulnier.
    Staff Present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Amy Raaf 
Jones, Director of Education and Human Resources Policy; Nancy 
Locke, Chief Clerk; Dominique McKay, Deputy Press Secretary; 
Brian Newell, Communications Director; Krisann Pearce, General 
Counsel; James Redstone, Professional Staff Member; Alex Ricci, 
Legislative Assistant; Alissa Strawcutter, Deputy Clerk; 
Juliane Sullivan, Staff Director; Leslie Tatum, Professional 
Staff Member; Sheariah Yousefi, Staff Assistant; Tylease Alli, 
Minority Clerk/Intern and Fellow Coordinator; Austin Barbera, 
Minority Staff Assistant; Denise Forte, Minority Staff 
Director; Christian Haines, Minority Education Policy Counsel; 
Tina Hone, Minority Education Policy Director and Associate 
General Counsel; Brian Kennedy, Minority General Counsel; 
Michael Taylor, Minority Education Policy Fellow; and Saloni 
Sharma, Minority Press Assistant.
    Chairman Kline. A quorum being present, the Committee on 
Education and the Workforce will come to order.
    Good morning, everyone. Welcome to today's hearing on the 
juvenile justice system. I'd like to thank our witnesses for 
joining us as we engage in a growing national conversation 
about how to set at-risk youth and juvenile offenders on the 
pathway to success.
    Some may be wondering why the Education and the Workforce 
Committee is holding a hearing on an issue that might otherwise 
fall under the Judiciary Committee's purview. After all, the 
words crime, court, judge, jail are not terms we frequently 
hear in this committee. So why are we here today? Because 
keeping our communities safe and supporting at-risk youth 
requires more than an adjudication system and a detention 
facility. It requires education, rehabilitation, and family 
participation, a joint effort by parents, teachers, community 
members, and civic leaders to prevent criminal behavior and 
support children who have engaged in illegal activity.
    The stakes are high for these youth and the communities 
they live in. Research shows children who have been 
incarcerated are up to 26 percent more likely to return to jail 
as adults. They are also 26 percent less likely to graduate 
high school. These are hardly the outcomes vulnerable children 
and their families deserve. They also have detrimental short- 
and long-term effects on our society, imposing costs on the 
taxpayers and jeopardizing the safety of others.
    This is an issue that directly impacts our families and our 
neighborhoods, and we all have a role to play in addressing it.
    Recognizing the value of a collaborative approach to 
juvenile justice, Congress passed the Juvenile Justice and 
Delinquency Prevention Act in 1974. The goal of the law is to 
educate at-risk youth and rehabilitate juvenile offenders so 
they can become productive members of society. The law is based 
on the premise that the juvenile justice system can create 
positive opportunities for children who would otherwise go 
without.
    As we will hear from our witnesses, many juvenile justice 
programs have helped children develop the life skills they need 
to hold themselves accountable and earn their own success. Of 
course, not all programs have experienced the same results. 
That's why States and communities are constantly looking for 
new ways to better serve at-risk youth.
    For example, many States are investing in alternatives to 
juvenile detention facilities, such as community and family-
based support services to help children get back on track. It 
appears these efforts are making a difference. Between 2001 and 
2011, crime and incarceration declined dramatically across the 
country. The rate of incarceration fell by 46 percent, and the 
rate of juvenile offenses fell by 31 percent.
    While these trends are heading in the right direction, we 
still face the stark reality that there are more than 2 million 
children involved in the juvenile justice system. Meanwhile, 
many more are at risk of entering the system because of 
difficult circumstances that too often lead to juvenile 
delinquency, such as poverty, broken families, and 
homelessness.
    As we discuss ways to better serve at-risk youth and 
juvenile offenders through education and rehabilitation, we 
have the privilege today of hearing from Sloane Baxter, someone 
who faced many of these challenges as a juvenile offender and 
who knows firsthand how community-based programs can set youth 
on a better path.
    Mr. Baxter, thank you for the example you're setting. By 
sharing your story with us today, you are helping make a 
difference in the lives of others. We look forward to hearing 
from you and the rest of our distinguished witnesses.
    Before I conclude my opening remarks, I want to commend my 
colleague, Ranking Member Scott, for his longstanding 
leadership on this important issue. I look forward to hearing 
from him today and to working with him in the future.
    With that, I yield to Mr. Scott for his opening remarks.
    [The statement of Chairman Kline follows:]

Prepared Statement of Hon. John Kline, Chairman, Committee on Education 
                           and the Workforce

    Some may be wondering why the Education and the Workforce Committee 
is holding a hearing on an issue that might otherwise fall under the 
Judiciary Committee's purview. After all, the words ``crime,'' 
``court,'' ``judge,'' and ``jail'' are not terms we frequently hear in 
this committee. So why are we here today? Because keeping our 
communities safe and supporting at-risk youth requires more than an 
adjudication system and a detention facility. It requires education, 
rehabilitation, and family participation--a joint effort by parents, 
teachers, community members, and civic leaders to prevent criminal 
behavior and support children who have engaged in illegal activity.
    The stakes are high for these youth and the communities they live 
in. Research shows children who have been incarcerated are up to 26 
percent more likely to return to jail as adults. They are also 26 
percent less likely to graduate high school. These are hardly the 
outcomes vulnerable children and their families deserve. They also have 
detrimental short- and long-term effects on our society, imposing costs 
onto taxpayers and jeopardizing the safety of others.
    This is an issue that directly impacts our families and our 
neighborhoods, and we all have a role to play in addressing it. 
Recognizing the value of a collaborative approach to juvenile justice, 
Congress passed the Juvenile Justice and Delinquency Prevention Act in 
1974. The goal of the law is to educate at-risk youth and rehabilitate 
juvenile offenders so they can become productive members of society.
    The law is based on the premise that the juvenile justice system 
can create positive opportunities for children who would otherwise go 
without. As we will hear from our witnesses, many juvenile justice 
programs have helped children develop the life skills they need to hold 
themselves accountable and earn their own success. Of course, not all 
programs have experienced the same results. That's why states and 
communities are constantly looking for new ways to better serve at-risk 
youth.
    For example, many states are investing in alternatives to juvenile 
detention facilities--such as community- and family- based support 
services--to help children get back on track. It appears these efforts 
are making a difference. Between 2001 and 2011, crime and incarceration 
declined dramatically across the country. The rate of incarceration 
fell by 46 percent, and the rate of juvenile offenses fell by 31 
percent.
    While these trends are heading in the right direction, we still 
face the stark reality that there are more than two million children 
involved in the juvenile justice system. Meanwhile, many more are at-
risk of entering the system because of difficult circumstances that too 
often lead to juvenile delinquency, such as poverty, broken families, 
and homelessness.
    As we discuss ways to better serve at-risk youth and juvenile 
offenders through education and rehabilitation, we have the privilege 
today of hearing from Sloane Baxter, someone who faced many of these 
challenges as a juvenile offender and who knows firsthand how 
community-based programs can set youth on a better path. Mr. Baxter, 
thank you for the example you're setting. By sharing your story with us 
today, you're helping make a difference in the lives of others. We look 
forward to hearing from you and the rest of our distinguished 
witnesses.
    Before I conclude my opening remarks, I want to commend our 
colleague, Ranking Member Scott, for his long-standing leadership on 
this important issue. I look forward to hearing from him today and to 
working with him in the future.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman. I'd like to thank you 
for calling this hearing today on the juvenile justice system. 
You have properly explained why juvenile justice is in this 
committee, the Education and the Workforce Committee, not in 
Judiciary. That's because the most effective solutions to 
juvenile crime and delinquency are prevention, particularly 
education, and not waiting for crimes to occur and responding 
with the criminal justice system.
    It's been over 100 years since we have established the 
juvenile court system in America. The juvenile system 
recognizes that children are generally less capable of having 
the requisite intent and maturity to commit crimes, and 
therefore, a rehabilitative and educational response to their 
misconduct, as opposed to a criminal justice response, is more 
appropriate.
    Over the 20th century, State juvenile justice systems 
evolved separately and without Federal oversight. In time, many 
became to resemble the adult systems with little focus on 
children and their rehabilitation. In response, Congress passed 
the Juvenile Justice Delinquency and Prevention Act in 1974. It 
creates the Federal guardrails that protect our children in the 
juvenile justice system in each State.
    JJDPA has three main components. The first act established 
core protections and other mandates that States must adhere to 
regarding the treatment of children in the juvenile justice 
system. It authorized formula and competitive grants to help 
States run their juvenile justice systems in line with the 
Federal requirements and provided delinquency prevention 
programs. And, finally, it created the Federal Office of 
Juvenile Justice and Delinquency Prevention, OJJDP, to oversee 
juvenile justice programs.
    In the 13 years since we last reauthorized the program, 
there's been a wealth of knowledge and research that has been 
created that needs to be integrated into our Federal juvenile 
justice policies. For example, we've seen positive results some 
States have had from investing in alternatives to incarceration 
and secure detention. I know that our witnesses today will be 
able to speak to some of the work being done around the country 
in small residential settings as opposed to large child prison 
warehouses and reform schools that marred our past.
    We have also documented the power evidence-based policies 
have in reducing crime and saving money. The Office of Juvenile 
Justice and Delinquency Prevention continues to fund and 
document practices and programs that have proven research bases 
and have marked impact on communities through prevention and 
intervention.
    We have recognized the role that misguided school 
discipline practices, coupled with an unresponsive juvenile 
justice system, what they play in creating what's called the 
school-to-prison pipeline with students being arrested and 
referred to the juvenile justice system for minor offenses at 
early ages that traditionally had been resolved in the 
principal's office.
    And perhaps more importantly, we have begun to realize 
around the country the role that trauma plays in the lives of 
disengaged youth. This is especially true in the lives of 
girls, the fastest-growing demographic in the juvenile justice 
system. The FBI statistics tell us that between 1980 and 2005 
the rates of arrest for violent offenses, including physical 
assault, sexual assault, and homicide increased 78 percent for 
girls, while declining 6 percent for boys. Research also shows 
that of girls entering the juvenile justice system, they are 
twice as likely as boys to report sexual abuse and girls are 
four times more likely than boys to have experienced sexual 
assault.
    I would be remiss if I didn't tell you that we know from 
briefings that will be taking place today at 11 o'clock, hosted 
by our colleague Karen Bass of California on this very topic, 
that is the rise of girls in the juvenile justice system and 
the link between sexual abuse and juvenile delinquency and what 
some researchers are calling the sexual-abuse-to-prison 
pipeline. We know that understanding trauma is often central in 
these young girls' and boys' lives, and understanding that is 
essential to helping them turn their lives around.
    Now, policy changes alone are not the only reason we need 
to reauthorize JJDPA. The current reauthorization expired in 
2007, and while the law still remains technically in effect, 
the authorization levels--the guidelines on how Congress should 
appropriate funds--are no longer in effect. We had a rude 
awakening in the House earlier this year when the 
appropriations bill appropriating money for the Department of 
Justice zeroed out multiple accounts under the act. And since 
there's no current authorization to point to in law, we were 
unable to amend the appropriations bill to include some 
funding.
    The chairman of the subcommittee who zeroed out the 
funding, did so by pointing out, in part, the fact that the 
program has not been reauthorized for 8 years and as such was 
either unnecessary or not a priority. The Senate recognized the 
need for Federal funds, and they restored the funding in their 
version of the Appropriations Act, but we're still likely to 
have the same problem year after year until we have a 
reauthorization of this program.
    The Senate has taken the lead in reauthorizing the act, and 
they have a bill which passed out of committee and will be 
considered on the floor sometime in the near future. And I'm 
committed to working with you, Mr. Chairman, here in the House 
to produce a bill that will build on what we've learned in the 
last 13 years, and it's my sincere hope that we can get a bill 
on the President's desk before the end of this Congress.
    I look forward to hearing the testimony of the witnesses 
today and hope we can move forward in a bipartisan manner for 
reestablishing JJDPA as guideposts for the juvenile justice 
policy for our country once again.
    Thank you, Mr. Chairman.
    [The statement of Mr. Scott follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Good morning. Chairman Kline, I'd like to thank you for calling 
this hearing today on our Juvenile Justice System.
    It has been over 100 years since we established a juvenile court 
system in America. The juvenile system recognized children as generally 
incapable of having the requisite intent to commit crimes, therefore 
requiring a rehabilitative and educational response to their misconduct 
as opposed to a criminal justice response. Over the 20th century, state 
juvenile justice systems evolved separately and without federal 
oversight. In time, many came to resemble adult systems, with little 
focus on children and their rehabilitation.
    In response, Congress passed the Juvenile Justice Delinquency and 
Prevention Act in 1974. It creates the federal guardrails that protect 
our children in the juvenile justice systems in each state. JJDPA has 3 
main components. The act first established core protections and other 
mandates states must adhere to regarding the treatment of children in 
the juvenile justice system. It authorized formula and competitive 
grants to help states run their juvenile justice systems in line with 
the federal requirements and provide delinquency prevention programs. 
Finally it created the Federal Office of Juvenile Justice Delinquency 
Prevention (OJJDP) to oversee juvenile justice programs.
    In the 13 years since we last reauthorized the program, there has 
been a wealth of knowledge and research created that needs to be 
integrated into our federal juvenile justice policies.
    We have seen the positive results some states have had from 
investing in alternatives to incarceration and secure detention. I know 
our witnesses here today will be able to speak to some of the work 
being done around the country in small residential settings, as opposed 
to the large child prison warehouses and reform schools that marred our 
past.
    We have documented the power evidence-based policies have in both 
reducing crime and saving money. The Office of Juvenile Justice and 
Delinquency Prevention, or OJJDP, continues to fund and document 
practices and programs that have proven research bases and make marked 
impact in communities through prevention and intervention.
    We have recognized the role that misguided school discipline 
practices, coupled with an unresponsive juvenile justice system, play 
in creating a School to Prison Pipeline, with students being arrested 
and referred to the juvenile justice system for minor offenses at early 
ages.
    And, perhaps most importantly, we have begun to realize around the 
country the role that trauma plays in the lives of our disengaged 
youth. This is especially true in the lives of girls, the fastest 
growing demographic in the juvenile justice system.
    FBI statistics tell us that between 1980 and 2005, rates of arrest 
for violent offenses-- including physical assault, sexual assault, and 
homicide--increased 78 percent for girls while declining 6 percent for 
boys. Research also shows that of girls entering the juvenile justice 
system are twice as likely as boys to report sexual abuse and girls 
were four times more likely than boys to have experienced sexual 
assault.
    I would be remiss if I didn't let all of you here know about a 
briefing that will be taking place at 11 today, hosted by our colleague 
Karen Bass of California, on the this very topic, the rise of girls in 
the juvenile justice system and the link between sexual abuse and 
juvenile delinquency - what some researchers are calling the sexual 
abuse to prison pipeline.
    Understanding the trauma that is often central in these young 
girls' and boys' lives is essential to helping them turn their life 
around.
    Policy changes alone though are not the only reason we need to 
reauthorize JJDPA. The current authorization expired in 2007. And while 
the law remains in effect, the authorization levels - the guidelines as 
to how Congress should appropriate funds - are no longer in effect. 
There was a rude awakening in the House this year when the 
Appropriators, in their FY 2016 bill appropriating money to the 
Department of Justice, zeroed out multiple accounts under JJDPA. And 
since there was no current authorization to point to in law, we were 
unable to amend it. The chairman of the subcommittee who zeroed out the 
funding did so pointing in part to the fact that the program had been 
out of authorization for 8 years, and as such was either unnecessary or 
not a priority. The Senate recognized the need for federal funds for 
juvenile justice so they restored funding in their version of the 
appropriation bill. But we are likely to have this same problem year 
after year, making the fight for juvenile justice funding an uphill 
climb until we have a reauthorization of JJDPA.
    The Senate has taken the lead in reauthorizing JJDPA and they have 
a bill which has passed out of Committee and will be considered on the 
Senate floor sometime in the future. I am committed to working with 
Chairman Kline here in the House to produce a JJDPA bill as well that 
builds on what we've learned in the last 13 years, and it's my sincere 
hope we can get a bill to the President's desk before the end of this 
Congress. I look forward to hearing the testimony of the witnesses 
today and I hope we can move forward in a bipartisan manner to 
reestablishing JJPDA as the guidepost of juvenile justice policy for 
the country once again.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to Committee Rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    [The information follows:](Scott)26-57 breakdown in 
transcript


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Kline. It is now my pleasure to introduce our 
distinguished witnesses, but I want to make an administrative 
announcement. We have a hard stop here this morning. This is 
somewhat unusual, but these are somewhat unusual times, at 
least on this side of the aisle. We have a hard stop at 11:45. 
So I'll be encouraging my colleagues to move with alacrity.
    So our witnesses today, we have Mr. Derek Cohen. He's the 
deputy director for the Center for Effective Justice at the 
Texas Public Policy Foundation in Austin, Texas. Mr. Cohen has 
presented several papers to the American Society of 
Criminology, the Academy of Criminal Justice Sciences, and the 
American Evaluation Association on the implementation and 
outcomes of various criminal justice policy issues, including 
juvenile justice.
    Mr. Sloane Baxter is a youth advocate here in Washington, 
D.C. Mr. Baxter received help and healing at Boys Town's 
family-style, community-based therapeutic residential program 
after referral from the juvenile justice system. While at Boys 
Town, he participated with other system-involved youth in 
publishing a collaborative book of poetry, entitled ``Concrete 
Dreams.'' Mr. Baxter successfully graduated high school and 
currently works full time as a coffee barista and runs his own 
home improvement business.
    The Honorable Steven Teske serves as the chief judge of the 
Juvenile Court of Clayton County in Jonesboro, Georgia. In 
2012, Judge Teske was appointed to the Criminal Justice Reform 
Council focusing on reforms to juvenile justice in Georgia. He 
is a past president of the Council of Juvenile Court Judges of 
Georgia and is a member of the board of trustees of the 
National Council of Juvenile and Family Court Judges.
    Dr. Tim Goldsmith is chief financial officer with Youth 
Villages in Memphis, Tennessee. Dr. Goldsmith has direct 
responsibility for the clinical research placement services and 
performance improvement departments at Youth Villages, an 
intensive youth diversion and intervention services program, 
and has been directly involved in the development and 
implementation of evidence-based programs at Youth Villages.
    I will now ask our witnesses to please stand and raise your 
right hand.
    [ Witnesses sworn.]
    Chairman Kline. Let the record reflect the witnesses 
answered in the affirmative.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. We allow 5 minutes 
for each witness to provide testimony. When you begin, the 
light in front of you will turn green. When 1 minute is left, 
the light will turn yellow. At the 5 minute mark, the light 
will turn red and you should wrap up your testimony as quickly 
as you can.
    This high-tech hearing room that we've got here in the 
Visitor Center actually gives you a clock, so you can take a 
look at that as well.
    When we get to questions from members of the committee, we 
are going to limit that time to 4 minutes instead of 5 minutes 
because of the hard stop we've got here. So if you will start 
to edit your questions now, that would be good.
    Mr. Cohen, you're recognized.

   TESTIMONY OF MR. DEREK COHEN, DEPUTY DIRECTOR, CENTER FOR 
 EFFECTIVE JUSTICE, TEXAS PUBLIC POLICY FOUNDATION, AUSTIN, TX

    Mr. Cohen. Thank you, Mr. Chairman and the rest of the 
committee, for inviting me here today. My name is Derek Cohen. 
I'm the deputy director for the Center for Effective Justice at 
the Texas Public Policy Foundation and in our Right on Crime 
campaign. We thank Chairman Kline and the committee for taking 
up this important issue.
    While not the widely most understood element of public 
policy, juvenile justice is certainly one of the most critical. 
In Texas alone, it costs us eight times what it costs to 
incarcerate an adult to incarcerate a juvenile. In the 
community, that is four and a half times. These costs per day 
pale in comparison when taking into account the potential long-
run expenses associated with repeat offending costs reasonably 
expected to accrue if the juvenile criminal's activity 
continues unabated.
    The malleability of juveniles' behavior, however, offers 
great potential for rehabilitation and great potential for the 
youth to be diverted from a life of crime.
    Like its adult counterpart, too, juvenile justice has 
experienced a rampant uptick in the application of law and 
formalized proceedings to address behavior of dubious criminal 
blameworthiness. This is experienced twofold by juveniles, as 
they are subject not only to the prevailing criminal law, but 
also to a body of status offenses, actions not criminal if 
committed by an adult, like truancy, incorrigibility, or 
running away, and so on. While not traditionally criminal in 
nature, these offenses still might land a juvenile behind bars.
    The valid court order, or VCO, exception included in 
previous reauthorizations of the Juvenile Justice and 
Delinquency Prevention Act permit the confinement of status 
offenders for failing to honor a court order mandating they do 
not commit the specific reoffense. Not only does this 
confinement of status offenders cost precious resources and 
limited juvenile compliant bed space, it often fails to address 
the root causes that triggered that offense in the first place. 
Further, it suggests that the State's role is to intercede with 
disciplinary issues traditionally reserved for family and the 
community.
    In 2013, an estimated 2,524 youth were detained with the 
most serious crime being a status offense during a 1-day 
census. An analysis of the data-gathering method conducted by 
us at the Texas Public Policy Foundation suggests that this 
estimate may actually underestimate the total by 3.68 times, 
the true number of status offenders being confined over the 
course of a year being closer to 8,404. Removal of this 
exception from future reauthorizations of the Juvenile Justice 
and Delinquency Prevention Act should strongly be considered.
    We've made key reforms to our juvenile system in the State 
of Texas and produced noteworthy results in State-level 
commitments and general expenditures on juvenile justice. Each 
session, legislators have implemented reform, some minor, some 
major, that prioritize community-based treatment alternatives 
to costly incarceration, and the bill that went through this 
session aimed on keeping juveniles closer to home. This bill is 
estimated to save tens of millions of dollars over the next 5 
years, as well as produce better outcomes in recidivism.
    In the fiscal year 2006, 2,738 juveniles were committed to 
secure facilities in Texas. By fiscal year 2013, the number of 
commitments had dropped to 818, a drop of over 70 percent. This 
drop allowed the State to close or consolidate seven 
facilities.
    These reforms were attended by a commensurate drop in 
nominal spending, with State expenditures on juvenile justice 
being the lowest it's been since fiscal year 2001, a drop of 16 
percent from 2005 to 2012 alone.
    If done properly, juvenile justice policy can intervene in 
a nascent criminal career, preventing future victimization at 
the hands of the offenders and drains on law enforcement and 
correctional resources. However, selecting and implementing 
these practices must be left to the respective States who stand 
to gain both financially and socially from getting it right.
    Thank you, sir.
    [The testimony of Mr. Cohen follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Kline. Thank you very much.
    Mr. Baxter, you are recognized for 5 minutes.

  TESTIMONY OF MR. SLOANE BAXTER, YOUTH ADVOCATE, WASHINGTON, 
                              D.C.

    Mr. Baxter. Good morning, Chairman Kline and Ranking Member 
Scott and members of the committee. My name is Sloane Baxter, 
and I appreciate the opportunity to talk to you all today. I am 
22 years old, and I'm here to share my personal experience with 
the juvenile justice system.
    I was the at-risk youth we're talking about today. Like a 
lot of other young people, who find themselves involved with 
the juvenile justice system, my family and I had challenges. My 
parents did the best they could, but both my mom and dad had 
drinking problems when I was young. By the time I was 11 or 12, 
I had become used to taking care of myself and doing things 
without much supervision.
    At school, things were up and down for me. I have ADHD. 
Teachers didn't always know the best way to help me. At home I 
started staying out late and hanging out with older guys. But 
by the time my parents realized the path I was on and tried to 
correct it, I didn't want to hear it.
    I started getting in serious trouble at 14 years old. When 
my parents separated, I came back to visit my dad and we got 
into an argument on a late night. My dad was intoxicated and I 
had been drinking as well. After that argument, I left the 
house, and although I had never been in trouble with the law 
before, I decided to try to steal a car. I broke the car 
window, but didn't get any further than that. When I walked 
away from the car, I was quickly caught by police and arrested.
    Breaking that window, trying to steal that car at 14 was 
really a cry out for help, an effort to control things that 
were out of my control. I know that now.
    I was detained at a youth service center, which is YSC, and 
placed on probation that I didn't comply with. I continued to 
missed curfew, drink alcohol, and occasionally smoke marijuana. 
There was no positive intervention with me at this point. 
Probation monitored me, but didn't do anything to implement 
help or assistance in my circumstances.
    I was ultimately committed to DYS, or Department of Youth 
Rehabilitation Services. Despite no new charges and a low risk 
level in the community, I spent most of the next year locked up 
at YSC, and then Oak Hill, which was a detention center for 
young youth.
    Oak Hill was a terrible, terrible place for me. The kids 
would get in fights with each other, fight guards, and, you 
know, pretty much just run around as they felt need. I was 15 
years old and depressed when staff from Boys Town came out to 
Oak Hill to interview me. I didn't know what to expect, but 
when I arrived, it was so different from the institutional, 
locked facilities where I had been. Boys Town was the first 
place that I had went where I felt that people actually cared 
about what they did and they actually cared about what I did.
    It was a positive, nonhostile environment. The expectations 
to learn and succeed were clear. It was a family-oriented 
atmosphere, and I lived with my Family Teachers, the trained 
married couple who implemented the Boys Town motto of care and 
support of staff. Payton and Yadelska Wynne became like a 
second set of parents to me.
    At Boys Town I had individualized care while Boys Town 
helped me. And finally, me admitting that I had a problem and 
them giving me the help I needed, I ended up going to rehab. 
And then I went back to finish the program with the Wynnes. 
Through the good times and the bad times, Boys Town was 
persistently supporting me. I was actually able to help other 
guys in the house, and we were a positive influence on one 
another.
    With all the skills I had learned at Boys Town, I became a 
peer mediator at school and I graduated successfully in 2012. 
Life still presents difficult circumstances, but now I have the 
skills to handle those situations as they come. I didn't learn 
anything positive locked up at YSC or Oak Hill, but at Boys 
Town I learned all kinds of skills that I still use today with 
my family and on my job.
    I have been employed with the same major corporation as a 
coffee barista for 4 years at Union Station, and I run my own 
small home improvement business. I'm self-reliant, and I have a 
better relationship with my parents today. My dad and I had a 
lot of struggles, but now I can actually tell him I love him. I 
haven't been rearrested, and I won't be. I have different 
visions for my life and possibilities for myself.
    Boys Town was a program that helped me and so many others 
just like me turn our lives around. But I'm not any different 
from any of those guys and themselves. The difference is that 
someone didn't just lock me up and give up on me. Instead, I 
got help and support in my community, and I was able to take 
charge for myself for the long term.
    I easily could have been a statistic. Instead, I'm a 
taxpaying, contributing member of society. There is that 
possibility in every young person, as long as you, me, and all 
of the rest of us are willing not to give up on them before 
even really giving them a chance to start.
    Thanks for inviting me to be here. Thank you.
    [The testimony of Mr. Baxter follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Kline. Thank you, sir.
    Judge Teske, you're recognized for 5 minutes, sir.

 TESTIMONY OF THE HONORABLE STEVEN TESKE, CHIEF JUDGE, CLAYTON 
              COUNTY JUVENILE COURT, JONESBORO, GA

    Judge Teske. Good morning, Chairman Kline, Ranking Member 
Scott, and members of this committee.
    In addition to the 16 years I've spent on the court, I've 
been involved in the juvenile justice system in many other 
capacities. You've mentioned one, Chairman Kline, and that is 
serving my Governor, Nathan Deal, on the Criminal Justice 
Reform Commission, but I state that specifically because we 
studied the juvenile justice system and it resulted in sweeping 
recommendations that were unanimously approved by our State 
legislature.
    This morning I would like to focus on our current juvenile 
justice system and the need to reauthorize the JJDPA. We do not 
have a national centralized juvenile justice system. 
Consequently, laws, policies, and procedures can vary widely 
from State to State and among local jurisdictions. This creates 
a patchwork of juvenile justice systems that result in 
inconsistent outcomes for youth, families, and communities, 
including youth exposure to physical, mental, and emotional 
injury.
    To address these inconsistencies and improve outcomes for 
youth and community safety, Congress passed the JJDPA in 1974. 
This act is designed to bring consistency in juvenile justice 
best practices among all the States by identifying four 
protections based in research that are core to delinquency 
prevention and rehabilitation. I'll name them quickly.
    The deinstitutionalization of status offenders, DSO. Status 
offenses are not crimes if committed by an adult. They include 
skipping school, running away, unruly behavior, and possession 
or use of alcohol. Under the JJDPA, with rare exceptions, 
status offenders may not be held in secure detention because it 
introduces them to truly delinquent youth that becomes a 
training ground to delinquency.
    Jail removal. Youth charged with a delinquent act may not 
be detained at adult jails, and for the same reason status 
offenders should not be locked up with delinquent youth. 
Children who are housed in adult jails are eight times more 
likely to commit suicide, two times more likely to be assaulted 
by staff, 50 percent more likely to be attacked with a weapon 
than children in juvenile facilities.
    The third one, sight and sound. Same reason. In those rare 
exceptions when children are placed in adult jail, sight and 
sound contact with adults is prohibited.
    And then lastly, disproportionate minority contact, DMC. 
Studies indicate that youth of color receive tougher sentences 
and are more likely to be incarcerated than white youth for the 
same offenses. States are required to assess and address the 
disproportionate contact of youth of color at all points in the 
justice system.
    The JJDPA is intended to create a Federal-State partnership 
for the administration of juvenile justice and delinquency 
prevention by providing funding, planning, and technical 
support to address the core protections.
    JJDPA has been a game changer in the juvenile justice 
field. For example, when I took the bench in 1999, my county 
was inundated with high commitment rates to State custody, 
overwhelming probation caseloads, of which most were kids of 
color, and nonviolent offenders and high reoffense rates. Using 
an approach mirrored in Ranking Member Scott's Youth PROMISE 
Act, I created a number of evidence-based programs and 
practices using Federal funding. These programs, seeded by 
Federal funds from JJDPA, have accomplished the following: 
Number one, an 83 percent decrease in our detention population; 
a 75 percent reduction in detention of minority youth; 77 
percent fewer commitments to State custody; 70 percent fewer 
commitments of minority youth. And, despite all of that, our 
juvenile crime rate went down 62 percent.
    In our efforts to reform juvenile justice statewide, which 
was led by our Governor, Nathan Deal, these Clayton County 
programs have become a model for reform. We have seen great 
success in Georgia, but we must be able to continue to 
capitalize on that momentum to ensure our children and 
communities are safe.
    To that end, I recommend the following. Number one, 
enhanced judicial training to keep up with the specialized 
field of juvenile justice; reauthorize the JJDPA for the 
reasons I just mentioned and so that new research in evidence-
based trauma and foreign practices can be implemented 
nationwide; strengthen the disproportionate minority contact 
core protection of JJDPA; and eliminate the use of detention of 
status offenders and promote less harmful and more effective 
alternatives to detention.
    Given the momentum in the Senate with the recent passage of 
the reauthorization in the Judiciary Committee, I believe this 
committee must begin its work to reauthorize the outdated 
JJDPA. Chairman, your committee now has an opportunity to 
improve upon a historical and strategic act of Congress that 
has assisted States like mine to keep our communities safe and 
put youth on a better path.
    I want to express my gratitude to you, Chairman Kline and 
this committee, for holding this hearing, and I look forward to 
working with you in any way I can.
    [The testimony of Judge Teske follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Kline. Thank you, Judge.
    Dr. Goldsmith, you're recognized.

 TESTIMONY OF DR. TIM GOLDSMITH, CHIEF CLINICAL OFFICER, YOUTH 
                     VILLAGES, MEMPHIS, TN

    Mr. Goldsmith. Thank you so much, Chairman Kline and 
Ranking Member Scott, for having us at this setting today.
    I'd like to talk a bit today about what's it's like for a 
provider to work with these families. We serve youth and 
families and the community across the Nation. With recent 
events with some of our troubled young people, it's even more 
important that we take this focus now.
    Members here have already mentioned some of the 
alternatives to juvenile justice and also some of the decrease. 
Let me tell you a bit about our work and our charge.
    Youth Villages is a nonprofit organization serving more 
than 23,000 at-risk youth and their families in 12 States and 
the District of Columbia, and even in these States of some of 
the members here, and also in this judge's court. Our 
organization has received numerous accomplishments, but part of 
them are focused on the issues that were mentioned here 
already: Cost effectiveness and positive results and impacts. 
That has been our focus.
    In my role as Youth Villages' chief clinical officer over 
the last 26 years, I've led the development and implementation 
of intervention aimed at improving the outcomes of at-risk 
youth. But I want to be clear, we did not start there. 
Initially, all that we were was a congregate care lockup 
facility. At that point in time, we had a good bit of outcome 
research that showed, surprisingly to us, that the more 
treatment that we provided in a group setting, the worse the 
kids did. Imagine our chagrin when we found out the longer they 
stayed, the worst they did.
    At that point in time, we changed our intervention strategy 
and focused on intensive in-home services, particularly 
Intercept and multisystemic therapy, which addresses the needs 
of youth who have been involved in the juvenile justice system 
and in the foster care system.
    Many of the youths, as Sloane mentioned here today, have 
challenges, but these trajectories can be changed. These young 
people come from chaotic, troubled, and it's already been 
mentioned here the trauma that these young people have is dire. 
The families are in dire circumstances. And more importantly, 
in many locations, many people believe that these youth are 
beyond repair. These youth have had trauma, they have real 
challenges in thinking skills, and now over the past 10 years 
we know even more about the impact of growing up in trauma and 
impact on adolescent brain development. We know more now.
    So many of our programs now focus on changing these 
trajectories. It is intensive, it's family focused, it's cost 
effective, with a major focus on safety, a major focus on the 
impact on victims, and that most of these youth have been 
victims themselves.
    A quick story about Ben, a young person that we worked with 
in our multisystemic therapy program. Forty criminal charges 
before we became involved with him. After that, he was placed 
in our multisystemic therapy program. He and his family were 
seen for 3 weeks and remarkably did well. And even when he got 
finished, went back to some of the people that he had stolen 
from and asked for an apology and apologized to them and 
offered to work for them for free.
    So there is evidence and strong evidence that the interest 
in community-based services works. We can do more. Initially, 
when we started, initially with judges, like this one next to 
me, it was a tough sell, because they were concerned about 
community safety, and certainly that is true. But our results 
started speaking for themselves, and our programs were 
strengthening families and strengthening communities.
    Seventy-five percent of youth, as has been mentioned here 
before, in youth facilities are confined for nonviolent 
offenses. The interesting part is that these children, these 
young people, they will come home, and they will be taxpayers, 
and they will vote. And so we need to do what needs to be done 
now to be able to make certain that happens.
    And as has been noted, scientific evidence suggests that 
incarceration is not developmentally appropriate and that youth 
confinement may actually lead to a higher risk of reoffending 
later in life. Our experience has shown that these programs 
work as long as they are family focused, they allow us to 
address the root issues within families, and they allow us to 
focus on the concrete needs of all families. And it's also cost 
effective, on average $426 a day for youth in a residential 
setting compared to $100 a day for our programs.
    I believe that our work demonstrates that alternatives to 
juvenile incarceration are not only necessary, but possible and 
cost effective, because these youth will be back in your 
community. Ultimately, this benefits everyone, because these 
stronger families mean stronger neighborhoods and stronger 
communities.
    Thank you very much for your interest and allowing us to 
speak.
    [The testimony of Mr. Goldsmith follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Kline. Thank you, sir.
    Thanks to all the witnesses. You stayed within the time 
limits remarkably well.
    I'll remind my colleagues that we're going to be limited to 
4 minutes, because we have the hard stop at 11:45, just over an 
hour. So I'll recognize myself for 4 minutes.
    I'm just going to keep going with you, Dr. Goldsmith. You 
were on a good roll there. We hear a lot, I hear a lot, about 
how one-size-fits-all approach is not very effective, that you 
need multiple approaches. Could you just take a couple of 
minutes and elaborate on why multiple approaches are needed and 
why they work?
    Mr. Goldsmith. Certainly. It's interesting when you note 
that a good number of youth, when they go through the juvenile 
justice system, typically for the first time, they are 
typically referred for two things, individual therapy and 
parenting classes. And I know the judge knows this.
    Some of the judges also know that the number one least 
effective intervention for youth like this is individual 
therapy. The dilemma is, in many courts across the Nation, is 
that they have no other options. They provide what they can 
unless the judges have worked with their States and with their 
Federal legislatures to provide services.
    So most of these youth who come in we work with in multiple 
systems. We work with the family, we work with the youth 
individually, we work with school systems, we work within the 
community, and most importantly for these young people, we work 
with their peer groups.
    So the one size, really, you are exactly right, does not 
fit all. You have to work across multiple systems to provide 
impacts. When you think of a parent who had a negative 
experience in school, and perhaps were a dropout themselves, 
and then you ask them to go and advocate for their youth in 
that school system where perhaps that same principal was the 
person who kicked the parent out.
    So it takes a tremendous amount of work across multiple 
areas that focuses on a large number of different strategies 
and a large number of different interventions for parents. I 
have yet to meet a parent that did not want to be a good 
parent. Lots of times they just don't know how.
    Chairman Kline. Thank you very much.
    I yield back and now recognize Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Let me just follow up with Dr. Goldsmith. How does the 
bill, the Juvenile Justice Delinquency Prevention Act, fund the 
programs that you're recommending?
    Mr. Goldsmith. I'm not fully familiar with all of the 
different components of how the bill funds these. I know that 
it has a focus on delivering alternatives to juvenile justice 
services, and it was the initial start of that. Some of the 
components that the judge mentioned in terms of confinement are 
also a component of some of the programs that we serve, 
particularly in reference to disproportionate minority 
confinement. But I'm not familiar with all of the components of 
that.
    Mr. Scott. Thank you.
    Judge Teske, I noticed that nobody suggested that we try 
more juveniles as adults. Could you tell me what you can do for 
a juvenile in juvenile court to reduce recidivism that criminal 
court judges can't do?
    Judge Teske. Yes, sir. You know, first, in distinguishing 
the role of a juvenile court judge from an adult judge really 
comes down to, you know, the juvenile and the adolescent brain 
of the juvenile. I mean, you know, their frontal lobe isn't 
developed until age 25, and that's the part that holds--
supposed to be holding the hands to the rest of our limbic 
system. So, you know, and they are hormonally charged up. So we 
have to be more patient with them. We have to give them time. 
They are under neurological construction. I mean, they are 
neurologically wired to do stupid things. Okay?
    I'm not saying they're stupid, because they have a great 
capacity to do wonderful things, but we can destroy that 
capacity if we use a hammer, okay, to beat them up. And so we 
need to slow down. We need to take the system, slow it down.
    And to follow up, you know, on Dr. Goldsmith, keep in mind 
there are eight criminogenic factors, there are eight causes of 
delinquent behavior. And that's why, you know, the one-size-
fits-all can't work, because kids may have different reasons 
for why they're committing delinquent acts. Family function, 
their peers, substance abuse, cognition, okay?
    And so what we are able to do is that we can fashion 
things, okay, a treatment plan. You know, in the adult world, 
there are no treatment plans. It's either this, 1 to 5 years, 
mandatory minimums, 20 years. I mean, who's talking about 
fixing them? Put on probation, have conditions of probation, 
now go and sin no more. We don't do that in the juvenile 
justice system, or we shouldn't do that in the juvenile justice 
system. We need to slow down, fashion treatment plans. It's not 
about punishment, it's about helping fix these kids and their 
families.
    Mr. Scott. Thank you.
    Mr. Cohen, you mentioned Right on Crime is focused on 
reducing crime and saving money in the process. Can you give a 
few examples of programs that reduce crime and save money that 
you have been involved in?
    Mr. Cohen. Certainly. Just confining it to the State of 
Texas alone, you know, over the last two legislative sessions, 
two things we've engaged on are issues of ticketing, you know, 
how do children come about getting these minor, these Class C 
misdemeanors. In 2013, Senate bills 393 and 1114 functionally 
removed the ability for ticketing on Class C misdemeanors from 
school. Now, those misdemeanors in school, you know, basically 
turned into an adult criminal record very, very quickly. We had 
the same issue going on up until this last session with 
truancy.
    We had similar success in the State of West Virginia. West 
Virginia had just passed their Senate bill 393, which had 
addressed many of the confinement on status offense issues, 
including truancy.
    Mr. Scott. Mr. Cohen, my time is about to expire.
    Chairman Kline. Yes, sir.
    Mr. Scott. If you could provide those to us in writing, as 
many of those programs you can, so we can review them, I'd 
appreciate it.
    Mr. Cohen. Be happy to sir.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Scott. Thank you.
    Chairman Kline. Dr. Foxx, you're recognized for 4 minutes.
    Ms. Foxx. Thank you, Mr. Chairman.
    I want to thank our panel today. The information you've 
provided has been very enlightening. I did have an opportunity 
many years ago to work with a facility that worked with 
children who'd been sexually and physically abused. And their 
focus after many years became family centered. And I learned a 
great deal at that time about the efficacy of family-centered 
therapies and family-centered treatments. So I'm really pleased 
to hear the comments that you all have been making about the 
programs that you're highlighting here.
    Dr. Goldsmith, I'll try to follow the example of my 
chairman and ask you a question. You and other witnesses have 
testified to the importance of using evidence-based 
interventions, and my colleagues will tell you, I'm a big fan 
of that. In your experience, how do you most accurately measure 
interventions for their effectiveness?
    Mr. Goldsmith. It's a great question, because lots of times 
people have interventions with no evidence, and there are those 
out there.
    What we do in our programs, all of the evidence-based 
strategies that we use, the best ones have what we call 
fidelity measures. And so it's like having a plan and you want 
to be certain that you follow the plan. And so we have measures 
that we use in ours that allow us to track the integrity in how 
closely the intervention strategy follows the way that the 
model was developed.
    That's most important, because lots of times people go to 
training, they get some training, and then they leave, and then 
they go out and attempt to implement the intervention. And if 
there's no ongoing strategy to know are you doing this the way 
it was designed, then it doesn't happen.
    The second thing that we do at our organization that we 
measure the impacts of our programs 6, 12, and 24 months post-
discharge, because we were looking for long-term, lasting 
change. And what we want to be able to do is to show a funder, 
a representative, a parent, if you put your child and you and 
your family participate in this program, we can tell you what 
the results are based on what your presenting issues are at 6, 
12, and 24 months post-discharge across the five main areas 
that impact juveniles, which would be school, association with 
law enforcement, mental health needs, and return back to a 
long-term care setting.
    Those are the types of things that we measure, because 
that's what people are interested in. Basically, if you finish 
the program, are you in school and are you a functioning member 
of society like all adolescents should be? So that's how we go 
about doing this, fidelity measures and the outcome measures.
    Ms. Foxx. Thank you, Mr. Chairman. I yield back.
    Chairman Kline. The gentlelady yields back.
    Mr. Pocan, you're recognized.
    Mr. Pocan. Sure. Thank you, Mr. Chairman, and thank you for 
having this hearing. I know our Ranking Member Scott has made a 
long career of trying to have juvenile justice reform, and 
having this in this committee is really appreciated. So thank 
you.
    Mr. Cohen, I am one of the more progressive Members of this 
body, and I'm big fan on Right on Crime. I spent about 20 
minutes last year on the phone with Grover Norquist and talking 
to him specifically about this. And I know Ranking Member Scott 
asked you to share with us in writing some of the other 
reforms. My question is, how many States are you currently 
doing this in with Right on Crime is active? Do you know that?
    Mr. Cohen. Yes. If we're including adult interventions as 
well, we are active in about 39 States.
    Mr. Pocan. Thirty-nine States. That's fantastic, because 
this is an issue where, you know, again, we've been tough on 
crime and tough on crime, but I think we're finally getting 
smart on crime, and we're working together.
    And this is, I think, a great collaboration.
    On some of the programs that you're doing that you're aware 
of, what can we do at the Federal level to help incentivize 
some of these reforms?
    Mr. Cohen. Well, to be honest with you, sir, I think the 
important thing is to point out the successes that these 
reforms have had in the States. These are reforms that have not 
only saved money in the short term, they have also saved 
exponentially more in the long run when we back out the cost of 
repeat offending, back out the marginal cost of the justice 
system. These are all areas of savings that we have for getting 
the policy right.
    You know, in Texas, I mentioned in my oral testimony, we 
consolidated much of our juvenile system, prioritized the 
regionalization, kept juveniles and treatment closer to home so 
that they still can be integrated into their community, still 
can be integrated into their school system. By that, we have 
spent 16 percent less, and this is in nominal dollars over the 
course of a decade. You know, with inflation that's almost 20 
percent less. So these are the types of selling points that 
should be made to the States.
    Now, the States themselves, the police power, which 
includes the juvenile justice system, ultimately belongs to the 
States. The States should recognize it is in their best 
interest that this what they can expect with these programs.
    Mr. Pocan. Sure. I appreciate that. Thank you.
    Let me ask you another question, it's a little bit of a 
curve ball, I guess. But, unfortunately, some people, the 
political season, still try to take advantage of this, and we 
watched this in Nebraska in a congressional district where they 
ran very much a Willie Horton type ad based on the reforms that 
you're all advocating for and doing them in States like Texas.
    Is there anything that we can do around that? Because I 
think there's such a great left-right alliance on this. This 
shouldn't be a partisan issue at all to try to move forward. 
How can we try to stop that kind of behavior to try to really 
move these issues forward?
    Mr. Cohen. Well, I think the proof of concept to that 
particular question is simply in the statistics. You know, 
we've made these, some minor reforms in some cases, aggressive 
reforms in others in the State of Texas, and we have the lowest 
crime rate that we've had since 1968.
    The reforms advocated by Right on Crime is not tantamount 
to soft on crime. You know, we still punish. However, we just 
make sure that when we do we just don't take the--you know, to 
borrow from the doctor and the judge--we don't take a one-size-
fits all approach. You know, if we have a low-level offender 
that could be better treated in the community and at no cost to 
public safety, let's do that. That is going to cost us 10 times 
less than it is to actually reserve bed space for that issue. 
And that person is going to still pay taxes, that person is 
going to still maintain contact with their family, they are 
still going to work their job. These are all benefits that you 
don't have if you just incarcerate as a knee-jerk reaction.
    Mr. Pocan. Thank you.
    And, Mr. Chairman, just in closing, in Wisconsin, I was in 
the legislature. Scott Walker, as a State legislator, Gwen 
Moore, as a State legislator, and I had helped placed a ban on 
placing juveniles at the supermax prison. We used to have 16- 
and 17-year-old kids there. So it can really work. And I just 
want to, again, applaud Right on Crime and what they're doing.
    Thank you. I yield back.
    Chairman Kline. The gentleman yields back.
    Mr. Rokita, you're recognized.
    Mr. Rokita. Thank you, Chairman.
    And good morning, everyone. I appreciate everyone's 
testimony.
    Back when I used to practice law, I did a bit of juvenile 
law. And Judge, I will tell you, it really didn't matter, 
frankly, what my clients did, my goal was to try to keep them 
out of the system, because if they succumbed to the system we 
were going to lose them forever, most likely.
    And your professional testimony, each one of you, reaffirms 
that today, that I thought I was doing the right thing back 
then. That doesn't mean we let them go. We really presented the 
court with a lot of strong options and consequences and tried 
to take care of the problem ourselves.
    And that was 20 years ago, and it seems like the practice, 
the industry, even if you want to call it that, has gotten a 
lot better, and your testimonies are proof of that.
    I really only have two questions. The first one would be to 
Mr. Cohen. I want you to reemphasize what it takes, from an 
options perspective, to not let these persons become repeat 
offenders.
    Mr. Cohen. Certainly. And that's, you know, I would 
actually throw back also to the testimonies from Dr. Goldsmith 
and Judge Teske, as well, is that the--
    Mr. Rokita. Please. I'll let them comment too.
    Mr. Cohen. The one-size-fits-all approach, it never works. 
And that's also why Right on Crime specifically advocates for 
keeping most of the juvenile justice interventions at least 
primarily a State-level initiative, because the offenders in 
Texas aren't going to look like the offenders in Alaska and 
California, Vermont, et cetera.
    So having multiple options because of the varying 
criminogenic risk factors, having multiple options because of 
the various factors that cause the intersection with the 
criminal justice system are all issues that need to be 
addressed, and those are best sussed out at the local level, 
the people who have the most hands-on data for what their 
specific needs for the juvenile system is going to look like.
    So what we did in Texas, or one of the general models that 
we use in Texas is that we have a commitment-based refunding 
model. In other words, once we set a baseline of how many 
people are referred to the State, anything above that baseline 
they have to pay for, anything below that baseline they get a 
bit of a refund for. This is a kind of a micro version of the 
incentive-based funding models that you see a lot of the 
providers use in other States.
    Mr. Rokita. Judge, same question, anything to add there?
    Judge Teske. I agree with Mr. Cohen. In Georgia, we've done 
the same thing. We have a juvenile justice reinvestment 
program.
    The problem has been in the past, going back 20 years ago, 
is what I call the default problem, where judges are looking at 
a kid, and they don't want the kid to go to jail, to be 
committed to the State, but they say: ``But I don't have 
anything in the community for this kid.'' So by default, they 
do that. So we had to get money to the local level just like 
Texas, and that's how we did it.
    But specific to your question is this: We need to follow 
what we now know, after 40 years of research, which has made 
juvenile justice truly a specialized field, okay, and 
distinguishes us from the adult court judges is very simple. 
There is what's called the risk principle, the needs principle, 
the responsivity principle, and the treatment principle. I 
don't have time, of course, to go into it. But as I once told 
Congressman Scott about 2010, Google it. Just go to ``what 
works in community corrections juvenile justice'' and you can 
get it, and that's how we're supposed to do it.
    Mr. Rokita. And, Doctor, let me have you yield. I want to 
get to Mr. Baxter, if you don't mind, in 15 seconds.
    Mr. Baxter, what advice do you have for kids coming up and 
following in your footsteps, so to speak, so that they don't 
get trapped in the system?
    Mr. Baxter. I would have to say, the biggest thing for me 
was my peers and seeing how they were affected differently 
because they couldn't express themselves differently. So their 
perspective was very statistical.
    I would probably say--
    Mr. Rokita. How do they avoid your missteps?
    Chairman Kline. The gentleman's time has, unfortunately, 
expired.
    Mr. Rokita. Thank you very much.
    Chairman Kline. Ms. Fudge, you're recognized.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    Thank you, Ranking Member Scott.
    I thank you all for being here today.
    Judge Teske, in your experience, what effect does poverty 
have on the youth you see in your courtroom, part one? And are 
there any programs that you are aware of that deal both with 
rehabilitation of the young person, but also pathways out of 
poverty for their families?
    Judge Teske. Excellent question. Poverty, as we know from 
the research, can drive crime. And it's about time that we 
start taking a look at poverty as a driver of crime and 
developing programs around that.
    Let me just put this in a nutshell, okay? We need to study 
juvenile crime like we study diseases, all right? You identify 
at-risk populations, identify the causation, and then develop a 
treatment plan.
    Diseases don't occur by chance. Diseases are not randomly 
distributed. Disruptive behaviors don't occur by chance. They 
are not randomly distributed. They can easily be studied and 
they can be fixed. But when we study them, we find what the 
drivers are. I've already mentioned that there are eight of 
them, but we're finding out there's one, I think eventually 
there will be one called trauma added to it.
    But even deeper than that, the reason there's a lot of 
trauma is because we get it from our poor kids who are coming 
to the court. Eighty percent, we do trauma assessment in our 
court, as much as 80 percent of the kids who come in our court 
have been traumatized. Traumatized people traumatize people, 
okay?
    Now, what are the programs to do that? There's a number of 
them, have been mentioned here: Functional family therapy, 
multisystemic therapy, cognitive restructuring. The seven 
challenges in terms of drug treatment. But it must go much 
deeper than that. We must build relationships in our community 
among both the private and the public sector, the businesses as 
well as the public.
    What we've done in Clayton County is we developed an 
independent backbone agency with a board of directors. The 
school system, which houses kids every day, Monday through 
Friday, they send the chronically disruptive kids to this 
independently backbone agency to do what? To assess, develop a 
treatment plan, monitor, get programs in the home, and most of 
them are poor families.
    Ms. Fudge. Thank you very much.
    And I want to go back to Mr. Sloane. First, I'm sure that 
you hear from people all the time, Mr. Baxter, how proud we are 
of you. And I am proud of you today. And I thank you so much 
for being here. And I thank you for providing your deeply 
personal account of how you ended up here today.
    So my question for you is, what do you think that we can 
do, what kinds of positive interventions or interactions that 
we can have with young people before they get to Oak Hill?
    Mr. Baxter. One of the things that worked for me best was I 
always had someone talking to me who knew a little bit more 
about things than I did. So regardless of where I was, there 
was always someone who would notice me, because I would observe 
things where I was at. I didn't really get into the physical 
aspect of being in these facilities and things like that. I was 
more of a--I had to stimulate my mind almost to keep sane.
    So with that being said, the biggest thing was people 
believing in me, because with someone believing in you, they 
have to give you responsibility, and with responsibility 
becomes failure. Failure makes you learn on your own. So I 
would say them giving me the firsthand opportunity to fail or 
succeed on my own.
    Ms. Fudge. Well, thank you. I think you're a great success. 
Thank you for being here.
    Mr. Chairman, I yield back.
    Chairman Kline. The gentlelady yields back.
    Mr. Walberg, you're recognized.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you for the 
hearing today. It brings me back to a number of years ago when 
I was in the State legislature, and while my wife and I were 
away, our oldest son was assaulted on a bicycle trail, the 
bicycle destroyed. And, fortunately, he didn't lose his eye. 
Two thugs, juvenile delinquents, as they were called, beat him.
    And what was frustrating was when we offered an opportunity 
to the courts for alternatives to incarceration in a juvenile 
home, and that alternative was for them to spend the month of 
August with our family, my son, who they had beat, and myself, 
scraping our barn and painting our barn together, and suffering 
the wonderful opportunity to eat my wife's home food cooking, 
but more than anything, we thought it would give an opportunity 
for an alternative for them to see victims as human beings, and 
for our family to work in turn with them attempting to right a 
wrong.
    And that wasn't allowed by the courts. And I know one of 
those went on--both went to juvie home and one went on to 
prison subsequent to that. So the hearing today, this 
discussion is important.
    Dr. Goldsmith, how does work fit in when we discuss the 
Juvenile Justice and Delinquency Prevention Act?
    Mr. Goldsmith. I'm sorry, I don't fully understand.
    Mr. Walberg. How does work fit in? I guess I'm talking 
about the dignity of work. We often today don't talk about work 
being dignified. Any work, any good work, is dignified, no 
matter how much remuneration you make. How does that fit into 
the Delinquency Prevention Act?
    Mr. Goldsmith. Right. Right. As been mentioned here, it was 
a critical component. You heard Mr. Baxter talk about his work 
experience now. And it's all part of the community systems that 
we try to embed youth in when you work in in-home, family-
focused community systems. Part of that system is the 
community, and you try to find those support systems within 
that community. Work is an essential component of where that 
can occur.
    Another one of our programs works with youth who are 
exiting the juvenile justice system. And we just finished a 
randomized clinical trial of that program with good success. A 
big component of that is the educational and vocational aspects 
of youth becoming involved in their community and involved as a 
taxpaying, working citizen.
    So over and over and over again our impact show the greater 
exposure they have to law-abiding, working adults, the better 
their experience later.
    Mr. Walberg. And meaningful work opportunities?
    Mr. Goldsmith. Yes, sir. I mean, I would imagine if you 
showed up in Judge Teske's court with the exact same case, he 
would probably go with you, would be my suspicion.
    Mr. Walberg. I would hope. I would hope so.
    Mr. Goldsmith. But those sorts of opportunities are rare, 
quite honestly, because, as Mr. Baxter has mentioned, lots of 
times when you get into systems, they see these kids as beyond 
repair, and they just need a consequence. And if you really 
stop and read files about what do these kids actually 
experience, it is horrendous.
    Mr. Walberg. Let me just jump over to Mr. Baxter and ask, 
what challenges did you face in trying to find meaningful work?
    Mr. Baxter. I do home improvement on the side now, but I 
was doing it with my dad for a while, and it wasn't something I 
would see myself doing for a longevity of time because of how 
strenuous it is. Outside of that, because he was my dad, he, of 
course, gave me a job, but I started wanting more independence 
for myself to say I did it for myself.
    Mr. Walberg. Okay.
    Mr. Baxter. Kind of with, like, negative and positive 
reinforcement.
    Mr. Walberg. Some of those that you see in the juvie system 
right now, what challenges did you see for them in getting 
that? You went on and did your own.
    I see my time has expired. Thank you, Mr. Chairman.
    Chairman Kline. I'm going to rescue you, Mr. Baxter. The 
gentleman's time has expired.
    Mr. DeSaulnier, you're recognized.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I want to thank 
you and the ranking member for this hearing and the panelists.
    I'm going to date myself. I worked for a juvenile court in 
the '70s, in the great Commonwealth of Massachusetts, and I've 
always had interest in this because of that through local 
government in California and State government.
    But what I want to ask you about, particularly Mr. Cohen 
and the judge, is sustainable funding. So in California, one of 
the things we struggle with is when the economy is doing well 
we put money into intervention and prevention, particularly for 
young people. We now know what the best investments are, but 
bringing that to scale and maintaining it has been a struggle. 
Might be somewhat unique to California because we depend too 
much on capital gain tax, so when we're doing well, we do this. 
But because juvenile probation doesn't have a big political 
constituency, it's always a struggle.
    So at one point when I was in local government the 
Foundation Consortium in California, Irvine and Packard, came 
to us at the State level and the local level and said: We're 
not funding any more programs unless you do a reinvestment 
strategy. And over generations we know you can save money if 
you do intervention, prevention.
    So can you talk a little bit about sustainable funding, 
knowing we know what is going to be the best even though it 
takes, as you say, not one-size-fits-all. Judge, could you talk 
about it a little bit? Maybe Mr. Cohen.
    Judge Teske. Yes, sir. Let me use first RECLAIM Ohio, 
because they were the first in the country to do reinvestment 
and redirect, established in 1995, yet it survived, okay, the 
economic turndown. And so I'd like to use that as a model 
picture for, you know, sustainability in terms of funding in 
the most difficult times.
    And what it's really about--and it's going to depend on 
each State, whether it's a home rule State or whatever, in 
terms of how it governs. But in Georgia, you know, what 
Governor Deal has done is say: Okay, we are going to create a 
special line item, okay, we're going to put it in the 
Department of Juvenile Justice budget. We are going to have 
staff around that, manage that. You know, the devil's in the 
details.
    What's happened because of these reforms, bed space has 
gone down. So, for example, those counties, which are many, 
that have received the reinvestment money--we call them 
incentive grants--the commitment rate is down 62 percent. Okay? 
So imagine how that resonates in terms of funding. Already, in 
the short time, we have already saved the State $85 million. 
Okay?
    Now, not all $85 million needs to go back into juvenile 
justice, right? Okay? So everyone is winning on this, including 
the infrastructure of the State, whether it be transportation 
or whatever, but we are dedicating those moneys, okay, on this 
formula basis, to go--now, the reason we got the money much 
sooner is because Governor Deal smartly said--asked the 
legislature for $5 million, okay, to hurry up and field this 
and get it started quick so the reinvestment money can be 
realized sooner.
    Mr. DeSaulnier. Thank you.
    Mr. Cohen, I don't want to exceed the chair's admonition 
about my 4 minutes, so if you could just briefly.
    Mr. Cohen. Certainly. And Judge Teske did very well to 
point towards Ohio's RECLAIM program insofar as how a juvenile 
justice reinvestment strategy could work.
    The only thing I would add to that conversation is, I am 
not aware of a particular model of jump-starting a reinvestment 
that doesn't require at least a small modicum of upfront costs. 
Now, you can expect to recoup that cost in a very short time 
horizon on many of these programs, but to think that it's 
nothing but just a downhill cost slope is a bit premature.
    Mr. DeSaulnier. Thank you, Mr. Cohen.
    I yield the balance of my time, Mr. Chairman.
    Chairman Kline. I thank the gentleman.
    Mr. Carter, you're recognized.
    Mr. Carter. Thank you, Mr. Chairman.
    And, gentlemen, thank you all for being here.
    Let me start off by saying for the past 10 years I have had 
the honor of serving in the Georgia State Legislature. And 
during the legislative session of 2013, I was actually 
cosponsor of the juvenile justice reform that you speak of, 
Judge Teske, and we passed that during that session. It was 
signed into law in May of 2013 by Governor Deal.
    As you just stated, it went into effect in October of 2014, 
and in a 9-month period we've seen a 62 percent decrease in 
cost. And that program has really turned out to be a great 
program. We're very proud of it there.
    What I want to ask you very quickly is that, you know, 
phase one, which included new intake procedures, education, and 
family support, we saw the felony commitments go down, as I 
mentioned. Do you believe that works, the family support and 
the education part of it?
    Judge Teske. Yes, sir, it does. And by the way, let me say 
thank you for your yea vote, okay.
    Mr. Carter. Sure.
    Judge Teske. Yes. So we use, to give you an example, most 
of the counties now, if not pretty much--maybe all of them, but 
by far most of them use functional family therapy and 
multisystemic therapy, because the number one cause of 
delinquency by way of research is family function. Okay? So if 
you have family dysfunction, that becomes the greatest cost.
    So you want to create the best protective buffer, and 
that's to build up the family, which means you have to get into 
the home to do it. You have to stop just treating the child. 
You have to look at the family, which tends to be many of the 
origin of the attitudes and other behaviors of the child 
leading to delinquency.
    Yes, we have found it to be true. My probation officers are 
tickled pink that they have FFT. They are seeing a difference 
in the parents.
    Mr. Carter. Well, let me mention also that while I was in 
the Georgia State Senate, I also served as chairman of State 
Institutions and Properties, which included being on the 
Appropriations Committee, and being over appropriating for 
corrections. And we were faced with cuts that we were forced to 
make as a result of the decrease in revenue in our State.
    And part of those cuts that we made were to move some of 
these low, like truancy and curfew violations that we had in 
the most secure juvenile beds, we moved them down to the less 
secure and to the family and at-home probation.
    And Mr. Baxter, what I want to ask you is this. Now, please 
understand where I'm coming from. I ask you this because I 
suspect that you know people who have been through both the 
most secure facilities and the less secure facilities. Can you 
tell a difference in those people?
    Mr. Baxter. Yes, I can. I'd say the ones that had the 
higher security are 9 times out of 10 they are more likely to 
come out worse than they were when they first went in. When 
they come back, they are more aggressive. When they come back, 
they are out of tune with society, things, update in technology 
and everything is always up, up, up, up, up. They come home, 
nothing's the same.
    So now you've taken somebody and you've erased everything 
they know, put them somewhere, taught them something, that it's 
either prey or predator almost when you're there. So when you 
come back out, they have that same mentality because nothing is 
there to prevent that from happening.
    So it's a recycled mentality. So they do come out worse 
when it's a higher level of security as opposed to a program 
that implements skills to go back into society.
    Mr. Carter. Great. Thank you, Mr. Baxter, for being here.
    Thank all of you for being here.
    Mr. Chairman, I yield back.
    Chairman Kline. I thank the gentleman.
    Ms. Wilson, you're recognized.
    Ms. Wilson of Florida. Thank you.
    Chairman Kline, I was excited to hear that you were calling 
a hearing on the subject of prevention and reduction of 
juvenile delinquency. As you know, I have dedicated my life to 
saving young men of color from the juvenile and criminal 
justice system. So I'm delighted for this committee to take up 
this issue, and I welcome the panelists here today.
    I also applaud Ranking Member Scott for his tireless 
leadership and unwavering dedication to this issue. I know we 
share the strong commitment to preventing poor outcomes for at-
risk youth, especially young men of color.
    From my personal experience as a school principal, I know 
how important it is to reach children and give them the 
support, encouragement, and resources they need to make good 
choices for themselves and their futures. I also think there 
should be greater emphasis on school-based intervention and 
prevention programs.
    Almost a quarter of a century ago, I founded the 5000 Role 
Models of Excellence Program, a program that has provided a 
model for dropout prevention initiatives across the Nation. 
Since its inception, 5000 Role Models has awarded more than $10 
million in scholarship to minority boys and helped thousands of 
young men turn their lives around.
    There are 98 chapters in the Miami-Dade County Public 
Schools, the fourth-largest school district in the Nation. Both 
Representative Curbelo and I represent them. There are 70 
chapters in Pinellas County Public Schools, which is St. 
Petersburg, Florida. And there are 40 chapters in Duval County 
Public Schools, which is Jacksonville, Florida.
    They take field trips to prisons, jails, and courtrooms so 
they can see firsthand how their actions can impact their 
lifelong goals. They have choices, extremely important choices. 
So they are exposed to the right choices and the wrong choices.
    They tour colleges, universities, and technical 
institutions. The 5000 Role Models founded its own fire college 
to train emergency medical technicians and future firefighters 
for the entire State of Florida. We partner with Cadillac 
dealerships, the firefighters union, the pipefitters union, and 
the Port of Miami to train its future workforce.
    These young men are also taught to respect the law, respect 
women, respect teachers, and others who are in charge. They 
learn to respect their elders, their parents, respect their 
peers, and respect themselves. They learn all this from people 
who love them and take time to listen to them.
    This is a school-based program that encourages these boys 
of color to remain engaged in school. Studies show that when 
children are more behaviorally and emotionally engaged in 
school, they are less likely to be delinquent. As we move 
forward, I urge my colleagues to focus on this connection and 
how reauthorization of JJDPA can reflect this reality.
    Mr. Baxter, I want to commend you for your work and turning 
your life around. Can you tell me, do you think you would have 
benefited from an in-school-based program to give you the 
encouragement, support, and one-on-one mentoring you needed at 
the time when you said you were in trouble and probation did 
not help you?
    Mr. Baxter. I did a few school things. One, I can't 
remember the name of the program, but it was basically a 
metropolitan police program where they have certain officers 
inside schools and they pick, like, one or two students out of 
the school to go to this program. I can't remember the name of 
it, but that was one.
    But Boys Town also helped me out a lot because any facility 
that I was at, I was at a different school now. Chelsea School 
is basically a private school for kids with LD. So the times 
that I got sent out of State, my counselor would hop on the 
horn and bring me my work so I could stay caught up on IEP and 
my curriculum. So, yes, school does help a whole lot, yes.
    Ms. Wilson of Florida. I yield back.
    Chairman Kline. I thank the gentlelady.
    Mr. Bishop, you're recognized.
    Mr. Bishop. Thank you, Mr. Chair.
    And thank you to all of you that have come to testify today 
on such an important subject. I want to thank the chair for 
taking this subject up and giving us some time for us to 
discuss.
    I've got kind of a unique perspective. I was a former 
prosecutor, but also a former defense attorney, so I've seen 
both sides of this. And I have also kind of witnessed firsthand 
the mentality in the judicial system with regard to crime and 
that in many cases the solution is always throwing the book at 
whomever that person is in front of the court that day, as if 
that would solve all problems.
    We know firsthand that, in fact, that's not the case, and 
especially this is true with the Nation's youth. There are 
opportunities to intervene. There are opportunities to provide 
alternative sentencing in ways to address issues that aren't 
necessarily just punitive in nature.
    That's why I'm really grateful that, Mr. Baxter, you're 
here today to really share. I think it's very brave of you to 
be here, for you to share your personal experience, to use that 
negative in your life as a positive, to help influence others 
in the future. And the fact that you are here today discussing 
public policy and ways that you can take your experience and 
expand it across the board for everybody to benefit from, I'm 
proud of you, and I just want you to know that. I'm very proud 
of you for being here today. And I'll give you a chance to 
speak.
    I wanted to ask you, you were talking about when you were 
14 years old and you broke that window that day, did you have 
any experience beforehand? Tell me about your family 
experience. I know you said there was alcohol involved at the 
time. Did you have an intact family unit? Tell me about what 
was in your mind that day that caused you to go down that path.
    Mr. Baxter. On that day I just wanted to get away. I wanted 
to get away from everything. A car means you're mobile. So I 
could go anywhere I wanted to at the time. But of course, I was 
unsuccessful at that.
    The biggest thing was I was trying to control something 
that I had no control over. My parents tried to control me, and 
they didn't have control over me either. So it's basically that 
challenge, when things--the perspective I had then was moreso 
like if one thing doesn't go your way and you start out as an 
A, it is harder to maintain an A than it is to start from an F 
and make it all the way back up.
    So that was kind of me wanting things to be right, wanting 
people to notice, getting the attention to make that 
difference, but I just expressed it in the wrong way, which 
eventually cost me more in the end.
    Mr. Bishop. So, obviously, you weren't thinking of the 
consequences down the line. You were expressing yourself at the 
time. But you indicated that you have had experience in both 
the heavy, traditional form of incarceration and also with Boys 
Town. What lessons did you learn at Boys Town that got you 
where you are today? I'm impressed by the fact that you have 
just absolutely turned your life around and now are using your 
lesson as a tool for good.
    Mr. Baxter. They definitely give you social skills. So far 
as time management, which I still work on that one, there's 
some other ones, being self-reliant, and everyday things, 
disagreeing appropriately, which was a really big one. And 
that's a really big one for youth all around the board as well. 
That's something that we don't know how to do. There's debate 
and there's argument. You know, there's no disagree 
appropriately, that's unheard of.
    They also have a point card system, which basically keeps 
track of your positive and your negative behaviors for the day, 
which reinforces if you'll have your privileges at the end of 
the week or you don't. If you don't, you have to work on skills 
every day until you make those privileges back.
    So it's something that you end up internalizing after a 
while because it's actually what you want. They give you more 
responsibility. The more you learn, the more responsibility you 
get.
    Mr. Bishop. Thank you, sir.
    I yield back.
    Chairman Kline. I thank the gentleman.
    Ms. Clark you're recognized.
    Ms. Clark. Thank you, Mr. Chairman and Ranking Member 
Scott.
    And to Mr. Baxter, I just want to say first, we all 
struggle with time management, as the chairman can tell you.
    Chairman Kline. Some more than others.
    Ms. Clark. But mainly, I want to thank you for giving voice 
to millions of young people with your testimony today and just 
tell you how much I admire your courage and your eloquence and 
the way you're building your life.
    And we have seen great successes, and I'm grateful to the 
panel not only for being here today, for your work over the 
past few decades, and really the decrease that we've seen in 
juveniles who are in the criminal justice system overall. We 
have come very far from when I was a prosecutor in the early 
'90s and we had the mythology that was so corrosive to our 
public policies of the superpredator juvenile that was, you 
know, coming to our families and to our homes. And I'm very 
grateful that we have come so far.
    But there is one trend that we're seeing that is alarming 
to me, that arrests among girls have grown by 45 percent and 
detention has grown 40 percent while we're seeing an overall 
decrease. And for girls of color, this is even more startling, 
3 times as likely to be referred to a court and 20 percent more 
likely to be detained. A recent report just came out that said 
girls are over four times more likely than boys to have been 
sexually abused before their juvenile justice involvement.
    So my question to you, and we touched, Chief Judge Teske, 
on this in your testimony and in response to some questions 
before, is trauma-informed practices are critical to how we do 
this. Can you explain a little bit, in a practical manner, what 
that means in the courtroom?
    Judge Teske. Yes. First of all, in a practical way, it 
means, first of all, very basic, is making sure that doors 
don't slam and make noises. It means stop shackling kids in the 
courtroom that don't need to be shackled.
    Ms. Clark. Do you see higher rates of shackling for girls?
    Judge Teske. Well, there are still plenty of jurisdictions 
that do indiscriminate shackling. They shackle everyone who 
comes into the courtroom, regardless of the nature of the crime 
they are charged with, which is counterintuitive to the 
presumption of innocence.
    But other things, you know, we need to be more practical. I 
can help explain the increase. We changed the laws around 
domestic violence. So now the States have, you know, when the 
police arrive, whoever the predominant aggressor is, identify 
that person and remove them.
    Well, because girls, with their unique needs and the trauma 
that many of them suffer, their behavior becomes their 
language. His behavior became his language. And so they pick up 
a knife. But that's just what they're doing, they're trying to 
speak. They do it through their behavior. They get arrested. 
That's when you start seeing the increases.
    If we can start looking at exceptions and mitigating 
factors for girls in these circumstances, we're going to do 
better off.
    Ms. Clark. Thank you. And can you tell me, implementing 
these trauma-informed practices, have you seen a difference in 
recidivism? Do you have those stories to tell?
    Judge Teske. Yes, I do, and I can send those to you. I will 
be glad to do that, because I know we're getting ready to run 
out of time. But, yeah, I'll be glad to it.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       
    Judge Teske. But, yes, it's not anecdotal. You know, we do 
have statistics around that where trauma-informed practices 
make a difference.
    Ms. Clark. Thank you.
    Chairman Kline. I thank the gentlelady. And everybody's 
awareness of time management has gone up.
    Mr. Allen, you're recognized.
    Mr. Allen. Thank you, Mr. Chairman.
    And thank you, panel, for sharing your work here with us 
today.
    And, Mr. Baxter, you have incredible testimony. And I would 
just like to ask you first, obviously, you are mentoring 
younger people. What is it that you share with them that would 
have made a difference which would have turned your life around 
before you went down the--I mean, do you have to experience 
these? Do you have to experience these things like, you know, 
youth detention and things like that to learn a lesson or is 
there some way we can get to them early before they actually 
make maybe the same mistakes you did?
    Mr. Baxter. I think it's definitely a way to get to it 
before it happens. One way, I think Ms. Wilson was saying, was 
definitely about school, because school is directly connected 
to your home. That's the only way that you would be able to get 
in between that, between the community, the youth, and the 
school. So these are all things that are kind of necessity for 
us to have something on our mind at all times.
    Then I didn't really know, you know, the perspective of an 
adult to a youth, You know, so I was kind of lost. And me being 
lost, I was trying to find my way. So, yeah, I might have known 
you touch a stove you might get burned, I know that, but I'm 
going to do it anyway, you know, to see what the--how it goes. 
You know, so I was curious, I was very, very curious because no 
one was telling me anything. So I had to find out on my own.
    So something I would have to say would be schools, schools 
oriented.
    Mr. Allen. Judge, you and Governor Deal have worked 
extensively on this justice reform in Georgia, and I 
congratulate you on your efforts.
    You know, one of the things that's concerning to--should be 
concerning to all of us is the fact that, for whatever reason, 
the family is not working. And it's very difficult out there 
for our kids. I mean, they are the ones that suffer. What do 
you see as--how can we restore the family unit in this country?
    Judge Teske. I made reference to it earlier, but I'll mine 
it down a little bit further, and that is in our local 
communities building collaborative relationships that laser 
focus on our families. My suggestion would be that the best 
formula is to identify the kids who are dropping out of school. 
I mean, who would ever think that keeping kids in school would 
improve graduation rates, okay, you know? But the thing is, is 
that how goes graduation, so goes crime.
    And so that's why juvenile justice is so important, because 
all kids become adults. If you want better adults, then help 
our kids. And so what that means is, is that the formula goes 
like this: Develop a profile of the kids dropping out of 
school, then determine their needs. You are going to find that 
most of the kids dropping out are from poverty and are 
traumatized.
    Then you have to develop a collaborative community plan 
that strategically addresses that. And like I said, what 
communities are doing now are developing these independent 
backbone agencies that are referral sources, and that's the 
laser focus that gets into the homes where schools can't get, 
courts can't get, you see, yeah.
    Mr. Allen. Yeah, schools have a tough time. We had a 
superintendent say: You know, I could do a lot better job if I 
had better parents.
    Thank you. I yield back.
    Chairman Kline. I thank the gentleman.
    Mrs. Davis, you're recognized.
    Mrs. Davis. Thank you, Mr. Chairman. And I certainly look 
forward to a strong bipartisan reauthorization of the juvenile 
justice bill.
    I really appreciate Mr. Baxter. We always point to whoever 
is here, the young person who--because it's important. It's so 
important to hear that voice. And so I appreciate the fact that 
you, you know, related to the fact that people would need to be 
up to date on technology. The world kind of like has gone by 
when someone's in a detention facility that is not reaching out 
in the way of bringing people up to date.
    But I also wanted to ask you more about the training of 
staff, of individuals, of providers in a few areas. Certainly, 
in terms of anything related to sexual assault, abuse, and also 
how they deal with racial implicit bias, cultural competency.
    Did you see a big difference in terms of the staff that you 
interacted with in different facilities, the community versus a 
detention facility? And what can we, what should we be doing? 
Is this something that should be built in any kind of 
legislation that we do, that we're making sure that people are 
being trained properly?
    Mr. Baxter. I'm glad you asked that question. There's a 
difference in training very much from a person who is at a 
detention center from someone who is at a residential campus 
that teaches you things. The residential campuses, of course, 
they have minor defense for themselves. At these facilities, 
that's all they're doing. All they're doing is managing people. 
You know, you don't really have a voice, so they're managing 
physical bodies. That's their job. Their job is hands on.
    With other programs and things, programs like his, [Mr. 
Goldsmith's] they have to find out who you are first and then 
they put things in your way for you to run back around and get, 
almost as planting a small seed and letting it grow.
    So, yes, the training is very different so far as between 
detention centers and places like Boys Town, or in things like 
that, because they don't have the skills in these facilities, 
lockdown facilities, they don't have the skills. They're not 
trained on that. You know, they're not trained to emotionally 
stabilize someone, or anything, or give them too much more 
knowledge outside of what they may already know. So, yes.
    Mrs. Davis. Okay. And for those of you, you know, Judge and 
others, is it too naive to think that some of those skills 
could be built into any facility, or do you think they are, 
actually?
    Judge Teske. Well, no, I think it is too naive, quite 
frankly. I'm going to go out there because, think about it for 
a moment, in Georgia, 65 percent of all kids who go into a 
secure facility reoffend within 3 years of getting out, and of 
crimes much worse than what even put them in there. Forty 
percent--nearly 40 percent of the kids we put in secure lockup 
in Georgia were low-risk offenders. That's not a really good 
investment on taxpayer dollar.
    And I agree with Mr. Baxter, it's because when you put kids 
in a secure facility you've separated them from their family. 
We've all been--everyone here who's spoken has acknowledged 
it's about the family. Well, how can you really be serious and 
I be serious about fixing kids when we know family is number 
one, but we put them in prison and take them away from their 
family? And now I'll shut up.
    Mrs. Davis. Okay. I think my time is almost up.
    I wanted to just ask as we move forward, because this is 
the Education and the Workforce Committee as well, of 
understanding what kind of communication, what kind of support, 
what kind of training is necessary to expand in our schools? 
What would you build in? What would you like to see as we move 
forward? And we know that there are great schools that do a 
good job, but I think it should be part and parcel of 
everything that we do, and appreciate your input.
    Thank you.
    Chairman Kline. The gentlelady's time has expired.
    Mr. Curbelo.
    Mr. Curbelo. Thank you, Mr. Chairman.
    Mr. Baxter, thank you for your very valuable testimony. You 
have a very moving story, but it's also a personal story and it 
takes courage and humility to state it in such a public forum. 
So thank you very much also for giving us a good example of 
what works and what doesn't work.
    It's clear to me that we're in the midst of a fast-paced 
evolution in the juvenile justice system. In Miami-Dade County 
Public Schools, where I had the privilege of serving on the 
board, as did my colleague Ms. Wilson, who you heard from 
earlier, they have done away with out-of-school suspensions, 
something that would have been unheard of just a few years ago 
and something that I certainly support.
    So it's clear that we're moving from a punishment-based 
system to a rehabilitation-based system, from exclusion to 
inclusion. What I want to ask you, and I will get to as many of 
you as I can, is what do you think we can do through a 
potential reauthorization to accelerate the pace of this 
evolution and to really have a smart, youth-centered juvenile 
justice system? I'll start with Mr. Cohen.
    Mr. Cohen. Thank you, sir.
    Well, you mentioned out-of-school suspensions, and that was 
an issue that we looked at briefly in the Texas Legislature. 
You know, the issue with out-of-school suspension is that, 
especially for an issue like truancy, you're going to punish 
the child for skipping school by making sure that they don't go 
to school. It just seems to be one of those nonsensical issues, 
or nonsensical ways of addressing a serious issue.
    When it comes to school discipline writ large and what the 
Federal Government can do, I would actually say, again, it's 
about making the information known of what has worked in the 
various States that it has worked in. When it comes to some 
sort of mandatory compulsion through a grant scheme, I'm not 
necessarily sure that always is going to beget the outcomes 
that this body wants simply because that creates a dependence 
on the Federal Government for something that they should be 
wanting to do themselves.
    Now, you know, there are certain--there are practices that 
probably should be incentivized over others, but that in and of 
itself doesn't mean that the State or even the locality should 
be going to the Federal Government looking for them to fund a 
particular program when it's the State or the locality that 
stands to reap the windfall of getting it right.
    Mr. Curbelo. Mr. Baxter, do you think that there are 
activities that we can incentivize through this reauthorization 
to perhaps encourage more of the programs like the one that 
saved your life through this reauthorization?
    Mr. Baxter. Probably the most positive thing I can come out 
with, that is most likely mentor programs, because like I said, 
when I was young I just simply didn't have anyone to kind of go 
through it with me or explain what exactly I was feeling. So I 
would say mentor programs.
    Mr. Curbelo. Thank you.
    Anyone else have anything they'd like to add?
    Judge Teske. Yes, sir. First of all, if you could go to the 
2010 report from the Federal Advisory Committee for Juvenile 
Justice, there is a chapter in there on the school-to-prison 
pipeline that I chaired and helped draft that gives specific 
recommendations.
    But as to the reauthorization under DMC, kids of color in 
some studies are six times more likely to be suspended out of 
school than their white counterparts for the same offenses. 
Okay?
    So that's low-hanging fruit. If we can incentivize where 
some way schools can develop, you know, alternatives to 
suspension, like we in the courts are doing alternatives to 
detention, you know, we could really, really hit this DMC issue 
really good. And maybe also take a look at the IDEA, because up 
to 70 percent of kids with disabilities have been reported 
being incarcerated in juvenile facilities.
    Mr. Curbelo. Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentleman.
    Mr. Grothman, you're recognized.
    Mr. Grothman. Thank you very much.
    A couple of questions. First of all, for Mr. Teske, you 
mentioned a second ago the role that poverty plays in these 
problems. It's always been a pet peeve of mine when people talk 
about poverty, because to me poverty in our society is not--
when I think of poverty, it should be, you're old enough to 
remember, pictures on Time magazine of Biafra or Bangladesh and 
kids with protruding stomachs.
    In our society, poverty means living in a heated and air-
conditioned apartment. Recently there was a study that, I 
think, 85 or 80 percent of the people in poverty have at least 
two TVs, most have cars, and such.
    I'm going to ask you, is the problem kids living in poverty 
or is the problem kids living with a difficult home life with a 
welfare lifestyle? In other words, is it a material problem or 
is it is a problem of parents providing a horrible role model 
for their kids?
    Judge Teske. The issue of poverty is extremely complex, and 
I understand, you know, the foundation of your question and 
distinguishing Bangladesh and here. And I certainly understand 
that. Here in the United States, while there are some places, 
even in Tennessee, the Smoky Mountains, there are folks who are 
living without. But let's go to the urban area. That's really 
what we're talking about.
    Mr. Grothman. Not necessarily.
    Judge Teske. Yeah, but, you know, in the urban area, you 
know, when we talk about poverty, you know, we're talking about 
the gunshots that he heard, okay, the alcoholism, and things 
that all, that's true. But what's causing that to happen even 
to the parents, okay, and especially given the fact that, 
unfortunately, in this country we still have a problem of too 
many people of color in poverty.
    I'm just going to tell from you a white southern judge, 
okay, which we were pretty good at Jim Crow laws enslaving 
people of color, okay, I'm just going to tell you right now 
it's a matter of histrionics. You know, after 300 years of 
doing that, just because we have a whole lot of freedoms that 
happen overnight doesn't mean that people can get out of that 
hole overnight. So that--
    Mr. Grothman. You're avoiding my question. Poverty is 
normally an economically defined term. Is the problem an 
economic one in which people do not have enough money or are we 
dealing with more of a social situation in which we have people 
who by historical and world standards are wildly wealthy?
    Judge Teske. No, both. I'm sorry, sir.
    Mr. Grothman. Do you see what I'm saying?
    Judge Teske. It's both. It's both. But It's driven first by 
money that then leads to all the social issues, as Mr. Baxter 
is here shaking his head up and down because he personally 
lived it, you know. And I see it too. I was a parole officer in 
inner-city Atlanta for 10 years. I dealt with--
    Mr. Grothman. Do you believe the problem is a lack of 
things you can buy with money? Do you really think if somebody 
is living in a two-bedroom, two-bath, air-conditioned apartment 
with gadgets and enough food that you're obese, that the 
problem is a money problem, or is it a role model problem with 
the parents?
    Judge Teske. Well, I think it's all of that. See, I'm not 
disagreeing with you. I think it's all of that. The question 
is, which came first, the chicken or the egg? You know, I mean, 
you know, it's not only that they're living in a project, okay, 
but it's where the projects are, with the guns and the drugs 
and all of that around them that itself creates trauma.
    Mr. Grothman. I'll ask the final question of Mr. Cohen.
    One of the things that bothers me when you guys generate 
statistics, and you're all good at generating statistics, is in 
determining the root causes here, you know, you look at 
educational achievement, or in poverty, however that's defined, 
but you don't talk about family background. Could you give us 
some statistics of family background, you know, the type of 
family you're with, and the degree to which that is impacting 
the people that wind up in the system?
    Chairman Kline. Let me interrupt here. The gentleman's time 
has expired. If you have that answer, Mr. Cohen, if you could 
submit it for the record that would be very helpful.
    Mr. Cohen. Will do.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
   
    Chairman Kline. We're about 3 minutes away from a hard 
stop. I want to thank the witnesses for being here today. I 
want to ask unanimous consent to submit a letter from Fight 
Crime: Invest in Kids into the hearing record on behalf of Mr. 
Thompson from Pennsylvania. Hearing no objection, the letter is 
submitted.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Kline. And I'll now recognize Mr. Scott for any 
closing remarks he has.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, I think we have heard a fairly consistent 
message, particularly from Right on Crime, that we can reduce 
crime and save money by making strategic investments in 
prevention, early intervention, rehabilitation, especially 
education, family therapy, and trauma-informed services.
    Judge Teske mentioned that a way of doing this would be 
through a process similar to the Youth PROMISE Act. We've heard 
support of the core requirements, and it appears that there's a 
consensus on approving the legislation.
    So Mr. Chairman, I look forward to working with you as we 
reauthorize the Juvenile Justice and Delinquency Prevention 
Act, and ask unanimous consent to enter into the record a list 
of policy recommendations from the Juvenile Justice Coalition 
ACT4.
    Chairman Kline. Without objection.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Kline. I thank the gentleman. I want to again 
thank the witnesses. I will add my thanks and congratulations 
and admiration to Mr. Baxter for boldly stepping forward and 
sharing his story.
    I commend you, everybody at the table. But the statistics 
that Mr. Grothman was talking about in terms of recidivism and 
lower incarceration all seem to be moving in the right 
direction, exception being what Ms. Clark was talking about 
with girls, with young women.
    So we've got some work to do here. You've been very, very 
helpful.
    There being no further business, the committee stands 
adjourned.
    [Additional submission by Dr. Nolan follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
     
    [Whereupon, at 11:44 a.m., the committee was adjourned.]

                                 [all]




</pre></body></html>
